U.S. Department of Justice

re

Office of the Solicitor General

Washington, D.C. 20530

November 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Dzhokar A. Tsarnaev, No. 20-443
Dear Mr. Harris:
The United States respectfully opposes respondent’s request for an additional 30-day
extension of time to file a brief in opposition to the petition for a writ of certiorari. As the
government explained in the petition (at 33), the victims of respondent’s crimes, the potential
jurors at a penalty-phase retrial, the district court, the government, and the Nation all have a strong
interest in this Court’s hearing and deciding this case this Term, in order to avoid further delay in
this long-running and critically important prosecution. In furtherance of that interest, the
government filed the petition well in advance of the due date.
The government appreciates the concerns raised by respondent’s counsel, and would not
oppose a short additional extension of time to file the brief in opposition, so long as the extension
would not prejudice the government’s preparation and filing of a reply brief or the Court’s ability
to hear the case this Term.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0443
USA
DZHOKHAR A. TSARNAEV

CLIFFORD GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
DANIEL HABIB
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
DANIEL_HABIB@FD.ORG
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER , CO 80302
303-444-1885

DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN , NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

